TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        The Taxpayer Advocate Service’s
                      ASK-TAS1 Toll-Free Line Has Evolved
                       Over Time, but Additional Steps Are
                        Necessary to Evaluate Its Impact



                                           June 7, 2012

                              Reference Number: 2012-10-052




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                  HIGHLIGHTS


THE TAXPAYER ADVOCATE SERVICE’S                       Advocate (NTA) and the ASK-TAS1 toll-free
ASK-TAS1 TOLL-FREE LINE HAS                           lines. The new process will require Wage and
EVOLVED OVER TIME, BUT ADDITIONAL                     Investment Division customer service
STEPS ARE NECESSARY TO EVALUATE                       representatives answering the NTA toll-free line
                                                      to transfer calls to the ASK-TAS1 toll-free line if
ITS IMPACT
                                                      they determine a call meets TAS case criteria.
                                                      While this approach could have merit, it would
Highlights                                            involve additional technological features,
                                                      additional or reallocated resources, and new
                                                      procedures for both Wage and Investment
Final Report issued on June 7, 2012                   Division and TAS employees involved with the
                                                      toll-free telephone calls. TAS management had
Highlights of Reference Number: 2012-10-052           not prepared detailed documentation that clearly
to the Internal Revenue Service National              outlines their methodology, such as how many
Taxpayer Advocate.                                    TAS personnel will be required to answer the
IMPACT ON TAXPAYERS                                   transferred calls and how TAS management
                                                      would evaluate the costs and expected benefits
Millions of taxpayers contact the IRS each year       of handling the increased call volume from the
by calling the various toll-free telephone            NTA toll-free line when implemented.
assistance lines to seek help in understanding
tax laws and meeting their tax obligations.           WHAT TIGTA RECOMMENDED
Taxpayers specifically requesting Taxpayer            TIGTA recommended that the NTA develop a
Advocate Service (TAS) assistance have                formalized process to track and analyze the
several telephone options, including the              impact of any targeted outreach that results in
ASK-TAS1 toll-free line staffed by TAS                calls received by the ASK-TAS1 toll-free line.
personnel. Additional documentation and               The NTA should also prepare detailed
analysis is necessary to evaluate the impact of       documentation that clearly summarizes how the
the ASK-TAS1 toll-free line and ensure that           ASK-TAS1 toll-free line will be used in the future
proposed changes to the line provide the              and should periodically analyze the call statistics
expected benefits without adversely affecting         for the new process to determine whether TAS
taxpayers.                                            personnel are answering calls in an efficient
WHY TIGTA DID THE AUDIT                               manner.

This audit was initiated to evaluate the IRS’s use    TAS management agreed with all three
of two TAS toll-free telephone lines, including       recommendations. Management’s plans include
service provided to taxpayers and costs               tracking and analyzing calls to the ASK-TAS1
associated with the lines, to determine whether       toll-free line, documenting the future vision of the
opportunities exist to reduce duplication and         ASK-TAS1 toll-free line, and using statistical
achieve cost savings. This review is included in      information to monitor the transfer of calls to the
our Fiscal Year 2012 Annual Audit Plan and            ASK-TAS1 toll-free line.
addresses the major management challenge of
Providing Quality Taxpayer Service Operations.
WHAT TIGTA FOUND
The TAS does not have a formalized process to
track or analyze the calls received by the
ASK-TAS1 toll-free line to assess the
effectiveness of its outreach efforts in generating
cases meeting TAS case criteria.
In addition, TAS management is planning a new
process involving both the National Taxpayer
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             June 7, 2012


 MEMORANDUM FOR NATIONAL TAXPAYER ADVOCATE

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Taxpayer Advocate Service’s ASK-TAS1
                             Toll-Free Line Has Evolved Over Time, but Additional Steps Are
                             Necessary to Evaluate Its Impact (Audit # 201110027)

 This report presents the results of our review of the National Taxpayer Advocate’s ASK-TAS1
 toll-free line. Our overall objective was to evaluate the Internal Revenue Service’s use of the
 two Taxpayer Advocate toll-free telephone lines, including service provided to taxpayers and
 costs associated with the lines, to determine whether an opportunity exists to reduce duplication
 and achieve cost savings. This audit is conducted as part of the Treasury Inspector General for
 Tax Administration’s Fiscal Year 2012 Annual Audit Plan and addresses the major management
 challenge of Providing Quality Taxpayer Service Operations.
 Management’s complete response to the draft report is included as Appendix IX.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and
 Exempt Organizations), at (202) 622-8500.
                                    The Taxpayer Advocate Service’s ASK-TAS1
                                Toll-Free Line Has Evolved Over Time, but Additional
                                     Steps Are Necessary to Evaluate Its Impact




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Additional Documentation and Analysis Is Necessary to
          Evaluate the Impact of the ASK-TAS1 Toll-Free Line ................................ Page 5
                    Recommendations 1 through 3:......................................... Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Taxpayer Advocate Service Case Criteria ........................... Page 16
          Appendix V – Comparison of the National Taxpayer Advocate
          and ASK-TAS1 Toll-Free Lines ................................................................... Page 17
          Appendix VI – Taxpayer Advocate Service Cases Received From
          the National Taxpayer Advocate and ASK-TAS1 Toll-Free Lines .............. Page 18
          Appendix VII – Cost Comparison of the National Taxpayer Advocate
          and ASK-TAS1 Toll-Free Lines ................................................................... Page 19
          Appendix VIII – Primary Issue Codes of Taxpayer Advocate Service
          Cases Originating From the National Taxpayer Advocate and
          ASK-TAS1 Toll-Free Lines.......................................................................... Page 20
          Appendix IX – Management’s Response to the Draft Report ...................... Page 21
          The Taxpayer Advocate Service’s ASK-TAS1
      Toll-Free Line Has Evolved Over Time, but Additional
           Steps Are Necessary to Evaluate Its Impact




                Abbreviations

CSR       Customer Service Representative
FTE       Full-Time Equivalent
FY        Fiscal Year
IRS       Internal Revenue Service
NTA       National Taxpayer Advocate
TAS       Taxpayer Advocate Service
W&I       Wage and Investment
                                The Taxpayer Advocate Service’s ASK-TAS1
                            Toll-Free Line Has Evolved Over Time, but Additional
                                 Steps Are Necessary to Evaluate Its Impact




                                             Background

The Taxpayer Advocate Service (TAS) is an independent organization within the Internal
Revenue Service (IRS) whose mission is to help taxpayers resolve problems with the IRS and to
recommend changes to prevent future problems. The goals of the TAS are to protect individual
and business taxpayer rights and reduce taxpayer burden. Currently, taxpayers specifically
requesting TAS assistance can utilize one of the following telephone options:
        National Taxpayer Advocate (NTA) Toll-Free Telephone Line (1-877-777-4778) –
         became operational in November 1998 and is staffed by Wage and Investment (W&I)
         Division customer service representatives (CSR) in the Fresno, California; Atlanta,
         Georgia; Baltimore, Maryland; Guaynabo, Puerto Rico; and Richmond, Virginia, offices.
         This line is the “official” TAS toll-free telephone number that is publically listed and
         available on the IRS website and in IRS publications. The CSRs determine whether the
         taxpayers calling meet TAS case criteria1 and refer applicable cases to the TAS unless
         they are able to resolve the taxpayer’s issue within 24 hours. Because the NTA toll-free
         telephone number is widely publicized on many IRS notices and on the IRS’s website,2
         significantly more taxpayers call this line for assistance compared with the ASK-TAS1
         toll-free and local taxpayer advocate lines. In the 4th quarter of Fiscal Year3 (FY) 2011,
         28.3 percent of all new TAS case receipts were generated through the NTA toll-free line.
        ASK-TAS1 Toll-Free Telephone Line (1-877-275-8271) – became operational in
         FY 2004 and is currently staffed by TAS intake advocates4 at six locations – the
         Fresno, California; Cincinnati, Ohio; Guaynabo, Puerto Rico; Memphis, Tennessee;
         Dallas, Texas; and Ogden, Utah, offices. This telephone number is provided to the public
         through targeted publicity and by including the telephone number on certain IRS notices.
         The intake advocates determine whether the taxpayers calling meet TAS case criteria and
         initiate a TAS case if applicable. The TAS case is then assigned to a case advocate (a
         different person than the intake advocate) to work with the taxpayer to help resolve the
         taxpayer’s problem. In the 4th quarter of FY 2011, only 0.7 percent of all new TAS case
         receipts were generated through the ASK-TAS1 toll-free line.




1
  See Appendix IV for a description of TAS case criteria.
2
  www.IRS.gov.
3
  A 12-consecutive-month period ending on the last day of any month, except December. The Federal
Government’s fiscal year begins on October 1 and ends on September 30.
4
  Serve as the first point of contact for taxpayers who have contacted or who have been referred to the Taxpayer
Advocate’s office after unsuccessful attempts to resolve their tax-related inquiries.
                                                                                                             Page 1
                                The Taxpayer Advocate Service’s ASK-TAS1
                            Toll-Free Line Has Evolved Over Time, but Additional
                                 Steps Are Necessary to Evaluate Its Impact



        Local Taxpayer Advocate – a local telephone number for each TAS office is required
         by Internal Revenue Code Section (§) 7803 to be published and available to taxpayers
         served by the office. Intake advocates also answer the Local Taxpayer Advocate
         telephone numbers to determine whether taxpayers calling meet TAS case criteria and
         whether a TAS case should be initiated. In the 4th quarter of FY 2011, 3.7 percent of all
         new TAS case receipts were generated through telephone calls to the Local Taxpayer
         Advocates.
In addition, millions of taxpayers contact the IRS each year by calling the other various toll-free
telephone assistance lines to seek help in understanding tax laws and meeting their tax
obligations.5 If the taxpayer’s issue meets TAS case criteria, the case is referred to the TAS and
is assigned to a case advocate for resolution. Based on statistical information on TAS case
receipts, more cases come from IRS referrals (e.g., an IRS employee identified that the
taxpayer’s issue should be referred to the TAS for resolution) than through the NTA toll-free,
ASK-TAS1 toll-free, and Local Taxpayer Advocate lines combined.
As noted in Figure 1, in the 4th quarter of FY 2011, 44.8 percent of all new TAS case receipts
were generated through referrals from IRS employees (this includes taxpayers who called the
IRS’s toll-free telephone number, 1-800-829-1040). Other sources of TAS cases include
taxpayer submission of Form 911, Request for Taxpayer Advocate Service Assistance,
congressional requests, and walk-ins.
        Figure 1: Fiscal Year 2011 4th Quarter TAS Case Receipts by Source
                            NTA Toll-Free
                                                                     Form 911/
                               28.3%
                                                               Correspondence
                                                                                             ASKTAS1
                                                                     13.0%
                                                                                               0.7%
      IRS
Congressional
                                                                                                    Walk-in
     0.1%
                                                                                                     1.3%



                                                                                             Congressional
                                                                                                  4.9%


                                                                                               Local Taxpayer Advocate
     IRS Referral
                                                                                                  3.7%
        44.8%
                                                                IRS – Taxpayer Requests
                                                                        3.2%

Source: Fiscal Year 2011 4th Quarter TAS Business Performance Review.

5
 The IRS has various toll-free telephone assistance lines available to taxpayers, including a line for individuals,
businesses, exempt organizations, etc.
                                                                                                                Page 2
                           The Taxpayer Advocate Service’s ASK-TAS1
                       Toll-Free Line Has Evolved Over Time, but Additional
                            Steps Are Necessary to Evaluate Its Impact



The ASK-TAS1 toll-free line was first established in FY 2004 and has been used in some of the
TAS’s marketing campaigns. In addition, the NTA stated the ASK-TAS1 toll-free line was
initially established to evaluate if this line could be used to replace the NTA toll-free line by
improving the identification of calls meeting TAS case criteria. Currently, TAS management is
planning to implement a new process in which calls meeting TAS case criteria are transferred
directly from the NTA toll-free line to the ASK-TAS1 toll-free line during the same phone call
instead of being referred for the TAS to contact the taxpayer at a later date. See Appendices V
through VII for detailed comparisons of the NTA and ASK-TAS1 toll-free lines.
This review was performed at the IRS Headquarters in Washington, D.C.; the TAS office in
Dallas, Texas; and the W&I Division office in Atlanta, Georgia, during the period July 2011
through January 2012. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                             Page 3
                           The Taxpayer Advocate Service’s ASK-TAS1
                       Toll-Free Line Has Evolved Over Time, but Additional
                            Steps Are Necessary to Evaluate Its Impact




                                Results of Review

Since FY 2004, TAS management has used the ASK-TAS1 toll-free line for two purposes and
expanded the line from a single site to its current structure of six call sites that answered
approximately 9,000 calls in FY 2011. In its current form, TAS management generally
publicizes the ASK-TAS1 toll-free telephone number on targeted notices sent to taxpayers and
through speeches and outreach performed by the NTA. However, we determined that the TAS
does not have a formalized process to track or analyze the calls received by the ASK-TAS1
toll-free line to assess the effectiveness of its outreach efforts in generating cases meeting TAS
criteria. TAS management should establish goals and improve tracking and analyses of the
impact of their targeted outreach on calls received by the ASK-TAS1 toll-free line to assist them
in fully evaluating the success of their efforts in meeting the intended purpose of the line.
During our fieldwork, the NTA discussed her future vision of the ASK-TAS1 toll-free line. She
indicated that TAS management is planning a new process involving the NTA toll-free line. The
new process will require W&I Division CSRs answering the NTA toll-free line to transfer calls
to the ASK-TAS1 toll-free line if they determine the call meets TAS case criteria. Intake
advocates on the ASK-TAS1 toll-free line will further evaluate the taxpayer’s issue to confirm it
meets TAS case criteria and, if applicable, initiate a case in the TAS to be worked by a case
advocate.
In FY 2011, approximately 84,000 calls received by the NTA toll-free line were determined to
meet TAS case criteria and were referred to TAS personnel to be worked. Case advocates are
required to contact taxpayers referred from the NTA toll-free line within three to five workdays
to begin the case resolution. When implemented, the NTA envisions that intake advocates will
be able to conduct a comprehensive interview with the taxpayer during the same telephone call
to identify underlying issues, share options for resolution, describe what to expect from the TAS
experience, build the case, and, in some instances, resolve the issues while talking with the
taxpayer. As a result, TAS management stated that this vision could result in increased
productivity for the TAS.
While this approach could have merit, it would involve additional technological features,
additional or reallocated resources, and new procedures for both W&I Division and TAS
employees involved with the toll-free calls. TAS management had not prepared detailed
documentation that clearly outlines their methodology, such as how many TAS personnel will be
required to answer the transferred calls and how TAS management would evaluate the costs and
expected benefits of handling the increased call volume from the NTA toll-free line when
implemented. As a result, the TAS is at risk of not being able to ensure that their resources are
being used as efficiently as possible. This is especially important given the current economic
environment and the increased focus on efficient spending in the Federal Government.

                                                                                            Page 4
                           The Taxpayer Advocate Service’s ASK-TAS1
                       Toll-Free Line Has Evolved Over Time, but Additional
                            Steps Are Necessary to Evaluate Its Impact



Additional Documentation and Analysis Is Necessary to Evaluate the
Impact of the ASK-TAS1 Toll-Free Line
Over time, the purpose of the ASK-TAS1 toll-free line has changed and expanded based on TAS
management’s use and vision for the line. However, TAS management does not evaluate the
current impact of their targeted outreach in generating calls to the ASK-TAS1 toll-free line that
would more clearly show the benefits for its use. In addition, TAS management has not prepared
documentation that outlines their proposed future vision of the ASK-TAS1 toll-free line,
including a comprehensive methodology for implementing the vision and measuring and
monitoring the results, along with expected benefits and costs, to assess the success of the new
process. Collectively, we believe this information is necessary for TAS management to evaluate
the impact of the line and determine how this line should be used in the future.

The TAS has not established a formal process to track and analyze the success
of the ASK-TAS1 toll-free line in reaching targeted taxpayers
TAS management advised us the ASK-TAS1 toll-free line has gone through two distinct phases
since its implementation in FY 2004: 1) an evaluation to determine if the ASK-TAS1 toll-free
line could replace the NTA toll-free line and 2) use of the ASK-TAS1 toll-free line to measure
targeted outreach efforts of the TAS. However, the TAS was unable to provide documentation
summarizing the results of its analysis of the ASK-TAS1 toll-free line as a replacement for the
NTA toll-free line. In addition, TAS management has not fully tracked and analyzed their
outreach efforts to assess the impact of these activities on generating calls to the ASK-TAS1
toll-free line that meet TAS case criteria.
Based on the documentation provided during our fieldwork, TAS established the ASK-TAS1
toll-free line in FY 2004 to pilot a 90-day outreach campaign (beginning on March 15, 2004) to
test whether the line would be useful. At the end of the 90-day test, the TAS indicated it would
decide whether to continue answering calls on the ASK-TAS1 toll-free line or use a recorded
message to refer callers to the NTA toll-free line. We do not know if the test was successful
because TAS management was unable to provide us with the results of this test or any
documentation that shows management’s evaluation of the ASK-TAS1 toll-free line use for this
purpose. However, TAS management advised us they continued to use the ASK-TAS1 line for
this purpose after the 90-day test.
The NTA informed us that the initial intent of the ASK-TAS1 toll-free line was to determine
whether it could be used to replace the NTA toll-free line to improve the identification of calls
meeting TAS case criteria and whether a business case could be made for the TAS to take over
the NTA toll-free line from the W&I Division. In Calendar Year 2008, the NTA ultimately
found that the TAS had similar results as the W&I Division in the percentage of calls received
meeting TAS criteria and concluded that the TAS should not pursue taking over the NTA
toll-free line. We asked TAS management for the results of this test; however, management was

                                                                                           Page 5
                             The Taxpayer Advocate Service’s ASK-TAS1
                         Toll-Free Line Has Evolved Over Time, but Additional
                              Steps Are Necessary to Evaluate Its Impact



unable to provide us with any documentation outlining this test or summarizing the results of any
analysis performed by the TAS in this area. As a result, we could not determine what
information affected the TAS’s decision not to further pursue any action to replace the NTA
toll-free line. The NTA informed us this decision was based on the similar percentage of cases
identified through both the NTA and ASK-TAS1 toll-free lines.
We performed an analysis comparing the NTA and ASK-TAS1 toll-free lines and concluded that
there is little difference between the NTA and ASK-TAS1 toll-free lines from a statistical
perspective. Specifically, we determined that there were a similar percentage of calls received
by each line that resulted in TAS cases. In addition, we determined that TAS cases initiated due
to the telephone calls from each line related to similar issues. As such, we agree with the TAS’s
conclusion that there is no measurable difference in the percentage of TAS cases identified or
types of issues handled between the ASK-TAS1 and NTA toll-free lines (see Appendix VI and
VIII for additional details). While both toll-free lines currently assist taxpayers in a similar
manner, the NTA is planning to use the ASK-TAS1 toll-free line in a new process as part of her
future vision, as discussed on page 7.
The NTA advised us that after the TAS decided not to pursue taking over the NTA toll-free line,
the TAS made the decision to use the ASK-TAS1 toll-free line to measure the effectiveness of
the TAS’s targeted outreach efforts. Specifically, TAS management generally publicizes the
ASK-TAS1 toll-free telephone number on targeted notices sent to taxpayers and through
speeches and outreach performed by the NTA. For example, the TAS published the ASK-TAS1
toll-free telephone number on specific correspondence to taxpayers related to identity theft and
private debt collection. In addition, the NTA stated she provides the ASK-TAS1 toll-free
telephone number during various speeches and interviews.
Although TAS management has stated the publicity of the ASK-TAS1 toll-free line is targeted to
specific taxpayers, we determined that the ASK-TAS1 toll-free telephone number is also
published on the TAS’s recently established Facebook site, which is available to all taxpayers.6
As a result, any taxpayer accessing the Facebook site could contact the TAS through the
ASK-TAS1 toll-free line. The NTA informed us that TAS management is interested in
determining the impact of social marketing in reaching taxpayers needing TAS assistance.
However, TAS management has not fully tracked and analyzed its outreach efforts to assess the
impact on calls received through the ASK-TAS1 toll-free line. During our fieldwork, we asked
TAS management if they could determine the origin of the calls historically received by the
ASK-TAS1 toll-free line, such as the number of calls received due to specific notices sent by the
IRS containing the ASK-TAS1 toll-free telephone number, the number of calls received due to
the NTA’s external presentations, the number of calls received due to the taxpayer identifying
the toll-free telephone number through the TAS’s Facebook site, etc.


6
    www.facebook.com/YourVoiceAtIRS.
                                                                                           Page 6
                                 The Taxpayer Advocate Service’s ASK-TAS1
                             Toll-Free Line Has Evolved Over Time, but Additional
                                  Steps Are Necessary to Evaluate Its Impact



TAS management advised us they do not specifically track how taxpayers calling the
ASK-TAS1 toll-free line identified the toll-free telephone number. In addition, TAS
management stated that no formal analyses were performed assessing its outreach efforts. As a
result, neither we nor the TAS were able to determine if the TAS’s outreach efforts were
successful in reaching targeted taxpayers and what, if any, benefit that information was to TAS
management.
Internal controls should provide reasonable assurance that an organization’s objectives are being
achieved. Tracking the source of calls and comparing them to the outreach events is necessary
for the TAS to determine the effectiveness of its outreach efforts in generating TAS cases.
Improved tracking and analyses of the impact of its targeted outreach on calls received by the
ASK-TAS1 toll-free line would assist TAS in fully evaluating the success of its efforts in
meeting its stated goal. This analysis should also help TAS management in assessing the value
of using the ASK-TAS1 toll-free line for this purpose and determining whether they are
allocating their limited resources in the most efficient manner.

Additional analysis and monitoring should be performed to ensure the future
vision of the ASK-TAS1 toll-free line provides the anticipated benefits
During our audit, the NTA briefed us on the TAS’s future vision of the ASK-TAS1 toll-free line.
Specifically, TAS management is planning to implement a new process in which calls meeting
TAS case criteria are transferred directly from the NTA toll-free line to the ASK-TAS1 toll-free
line. At the time of our review, the technical capabilities allowing for direct call transfer from
the NTA toll-free line to the ASK-TAS1 toll-free line were not yet available due to IRS budget
constraints. IRS management indicated that the information technology changes necessary to
facilitate this process would not be made until April 2012 or later.
When the new process is implemented, the NTA envisions that TAS intake advocates will
conduct a comprehensive interview with the taxpayer to identify underlying issues, share options
for resolution, describe what to expect from the TAS experience, begin building the case, and, in
some instances, resolve the issues while talking with the taxpayer during the same initial call.
These types of questions are normally covered as part of the TAS’s initial contact with the
taxpayer after the case is assigned to a case advocate. The NTA also stated the new process
could ultimately help the TAS assist with inventory balancing in its Case Advocacy Program and
reduce its case cycle time if the case advocates and taxpayers are better prepared for the initial
contact meeting.7 Further, TAS management stated the intake advocates will verify that the case
coding input by the W&I Division CSRs is accurate. As a result, TAS management stated this
could result in increased productivity for the TAS. The new process should be tracked and
measured to determine whether it does result in increased productivity or reduced cycle time.



7
    Closed case cycle time in the Case Advocacy Program averaged 82.2 days in FY 2011.
                                                                                            Page 7
                               The Taxpayer Advocate Service’s ASK-TAS1
                           Toll-Free Line Has Evolved Over Time, but Additional
                                Steps Are Necessary to Evaluate Its Impact



In 2007, the TAS worked with W&I Division management to move the ASK-TAS1 toll-free line
to the IRS Joint Operations Center.8 At that time, the number of ASK-TAS1 call sites increased
from one to three, resulting in technology costs of approximately $337,000. In FY 2011, TAS
management increased the number of ASK-TAS1 call sites from three to six offices to build the
infrastructure necessary to implement the new process and “drive calls” to the ASK-TAS1
toll-free line to increase the experience level of the intake advocates. We reviewed the
documentation supporting this call site increase, which indicated additional sites were necessary
to provide for continuity of operations and increased geographic coverage. The cost of this
expansion was approximately $52,000.9
In FY 2011, approximately 84,000 calls received by the NTA toll-free line were determined to
meet TAS case criteria and were referred to TAS personnel to be worked. We are concerned
with the amount of TAS resources that would be necessary to potentially answer an additional
84,000 calls per year transferred from the NTA toll-free line.
TAS management has not fully determined if additional full-time equivalents10 (FTE) will need
to be hired to fully implement the new process. However, they informed us that they expected to
be able to redirect TAS resources based on efficiencies gained through its implementation. In
addition, TAS management stated that they may be able to obtain some resources from the
W&I Division if W&I Division CSRs also obtain resource savings when the new process is
implemented. Based on our analysis, implementation would be costly in terms of the FTEs
required to staff the ASK-TAS1 toll-free line. As shown in Figure 2, we estimate it will take an
additional 53 FTEs, equating to approximately $3,110,676 in annual salary costs.11 These
additional resources would need to be hired as new employees or redirected from other TAS
programs. This is a significant increase in staff resources, and the TAS needs to develop specific
plans for addressing the rapid increase in both call volume and staff needed to answer the calls.




8
  The Joint Operations Center is operated by the W&I Division to monitor the IRS telephone operations and tracks
statistics such as number of calls answered, calls dropped by taxpayers, length of time on hold, etc.
9
  The TAS added ASK-TAS1 call sites in Guaynabo, Puerto Rico; Memphis, Tennessee; and Ogden, Utah.
10
   A measure of labor hours in which one FTE is equal to eight hours multiplied by the number of compensable days
in a particular fiscal year. For Fiscal Year 2011, one FTE was equal to 2,088 staff hours. For Fiscal Year 2012, one
FTE is equal to 2,080 staff hours.
11
   The cost of FTEs is based on FY 2011 average salary and benefits provided by the TAS.
                                                                                                             Page 8
                               The Taxpayer Advocate Service’s ASK-TAS1
                           Toll-Free Line Has Evolved Over Time, but Additional
                                Steps Are Necessary to Evaluate Its Impact



                         Figure 2: Impact of the Future Vision on the
                         ASK-TAS1 Toll-Free Line When Implemented

                                                ASK-TAS1                  ASK-TAS1 Toll-Free Line
                                               Toll-Free Line              (Estimated When Fully
                                                 (FY 2011)                     Implemented)12

      Totals Calls Answered                         8,958                            84,000

      Direct and Overhead FTE                        5.66                               53

      Cost per FTE                                 $58,692                          $58,692

      Total FTE Cost                              $332,197                         $3,110,676
     Source: TAS and W&I Division management and Treasury Inspector General for Tax Administration analysis.

The NTA informed us that they plan to implement this process in FY 2012. However, TAS
management had not prepared any detailed documentation that clearly outlined their
methodology, such as how many TAS personnel will be required to answer the transferred calls
and how TAS management would evaluate the costs and expected benefits of handling the
increased call volume from the NTA toll-free line when fully implemented. On March 8, 2012,
TAS management issued a notice to the National Treasury Employees Union of their intent to
conduct a 6-month “proof of concept” to transfer calls handled by select assistors at the NTA
toll-free sites located in Baltimore, Maryland, and Richmond, Virginia, to all six of the TAS’s
ASK-TAS1 call sites.
TAS management informed us that the only procedural detail still pending relates to differences
in the hours of operation between the NTA and ASK-TAS1 toll-free lines.13 Because the
ASK-TAS1 toll-free line is available only until 5:00 p.m., TAS management has not yet
determined how to respond to taxpayers who call the NTA toll-free line between 5:00 p.m. and
7:00 p.m. If TAS management is unable to extend the hours of operation on the ASK-TAS1
toll-free line, taxpayers may be required to leave a message for TAS intake advocates to return or
the TAS will have to coordinate with the W&I Division to ensure calls received during this time
period are not transferred to the ASK-TAS1 line. This may negate some of the expected benefits
of this new process.
While we understand the potential benefits of this new process, there may be significant
increased costs and resources needed to implement the future vision. In addition, we believe
TAS management should identify the measures they will use to assess the new process and
evaluate it on a periodic basis to ensure the new process provides the expected benefits without

12
  The Total Calls Answered (rounded) and Cost per FTE are the actual amounts from FY 2011.
13
  The NTA toll-free line operates between 7:00 a.m. to 7:00 p.m., while the ASK-TAS1 toll-free line is available
from 7:00 a.m. to 5:00 p.m.
                                                                                                            Page 9
                              The Taxpayer Advocate Service’s ASK-TAS1
                          Toll-Free Line Has Evolved Over Time, but Additional
                               Steps Are Necessary to Evaluate Its Impact



adversely affecting taxpayers. Fully determining the costs associated with the new process and
establishing how they will measure its impact will assist TAS management in evaluating the
success of this process.
W&I Division management tracks performance data related to calls received by the ASK-TAS1
toll-free line, including the number of calls answered, level of service,14 dropped calls, average
speed of answer,15 etc. TAS management should ensure they analyze this information on a
periodic basis when the new process is implemented. This will assist TAS management in
determining if the intake advocates are able to answer all the incoming and transferred calls and
take appropriate actions, if necessary, to ensure taxpayer calls are handled in the most efficient
manner.

Recommendations
The National Taxpayer Advocate should:
Recommendation 1: Develop a formalized process to track and analyze the impact of any
targeted outreach efforts that result in calls received by the ASK-TAS1 toll-free line. In
addition, TAS management should document the results of their analyses assessing whether they
are achieving their stated goal and what, if any, benefit this information is to TAS management.
        Management’s Response: TAS management agreed with our recommendation and
        will formalize the process to track and analyze ASK-TAS1 toll-free line calls and assess
        the results against outreach efforts.
Recommendation 2: Prepare detailed documentation that clearly summarizes how TAS
management envisions the ASK-TAS1 toll-free line will be used in the future. In addition, TAS
management should determine the full costs of implementing the TAS’s future vision, including
the resources necessary to effectively handle the increased call volume on the ASK-TAS1
toll-free line and the measures that they will use to monitor whether the new process achieves its
expected benefits.
        Management’s Response: TAS management agreed with our recommendation and
        will clearly document the vision for the ASK-TAS1 toll-free line, determine the costs and
        benefits, and establish measures to monitor the success of the new process.
Recommendation 3: Ensure a process is implemented to periodically analyze the call
statistics captured by the W&I Division for the new process to determine whether TAS personnel
are answering incoming and transferred calls to the ASK-TAS1 toll-free line in an efficient
manner.

14
  Level of service measures the relative success rate of taxpayers who call the IRS for assistance.
15
  The average speed of answer is the average number of seconds customers waited in a queue before receiving
service.
                                                                                                        Page 10
                  The Taxpayer Advocate Service’s ASK-TAS1
              Toll-Free Line Has Evolved Over Time, but Additional
                   Steps Are Necessary to Evaluate Its Impact



Management’s Response: TAS management agreed with our recommendation and
will formalize a process using statistical information available through the IRS
toll-free network to monitor the transfer of calls to the ASK-TAS1 toll-free line.




                                                                            Page 11
                               The Taxpayer Advocate Service’s ASK-TAS1
                           Toll-Free Line Has Evolved Over Time, but Additional
                                Steps Are Necessary to Evaluate Its Impact



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to evaluate the IRS’s use of two Taxpayer Advocate toll-free
telephone lines, including service provided to taxpayers and costs associated with the lines, to
determine whether an opportunity exists to reduce duplication and achieve cost savings. To
accomplish our objective, we:
I.      Determined why the NTA, ASK-TAS1, and local TAS telephone numbers were
        established and how they differ by interviewing TAS and W&I Division personnel. In
        addition, we compared the service provided by the NTA, ASK-TAS1, and local TAS
        telephone numbers to determine whether an opportunity exists to eliminate overlap or
        reduce duplication.
II.     Identified applicable policies and procedures used by the W&I Division and the TAS
        regarding the toll-free telephone lines by reviewing the Internal Revenue Manual to
        determine the criteria used to accept cases into the TAS, and the W&I Division and TAS
        authorities to resolve taxpayer inquiries. Further, we researched the notices, letters,
        publications, etc., containing the NTA and ASK-TAS1 toll-free telephone numbers.
III.    Performed a statistical analysis of the NTA and ASK-TAS1 toll-free lines to determine
        utilization and potential trends by identifying the volume of calls received, calls
        answered, and taxpayers with cases opened in the TAS. We also determined whether
        certain types of cases are received through a particular toll-free telephone line based on
        analysis of the major issue codes in the Taxpayer Advocate Management Information
        System.
IV.     Assessed the cost of operating the NTA and ASK-TAS1 toll-free lines by determining the
        FTE1 salary and benefits cost, including overhead which consists of management and
        support personnel.
V.      Determined the hours of operation and staffing for the NTA and ASK-TAS1 toll-free
        lines.




1
  A measure of labor hours in which one FTE is equal to eight hours multiplied by the number of compensable days
in a particular fiscal year. For Fiscal Year 2011, one FTE was equal to 2,088 staff hours. For Fiscal Year 2012, one
FTE is equal to 2,080 staff hours.
                                                                                                           Page 12
                           The Taxpayer Advocate Service’s ASK-TAS1
                       Toll-Free Line Has Evolved Over Time, but Additional
                            Steps Are Necessary to Evaluate Its Impact



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the TAS and W&I Division’s policies,
procedures, practices, and statistical information related to the usage and cost of the NTA and
ASK-TAS1 toll-free lines. We evaluated these controls by interviewing management and
analyzing statistical information.




                                                                                          Page 13
                         The Taxpayer Advocate Service’s ASK-TAS1
                     Toll-Free Line Has Evolved Over Time, but Additional
                          Steps Are Necessary to Evaluate Its Impact



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and
Exempt Organizations)
Jeffrey M. Jones, Director
Janice M. Pryor, Audit Manager
Joseph P. Smith, Lead Auditor
John W. Baxter, Senior Auditor
Melinda H. Dowdy, Senior Auditor




                                                                                   Page 14
                         The Taxpayer Advocate Service’s ASK-TAS1
                     Toll-Free Line Has Evolved Over Time, but Additional
                          Steps Are Necessary to Evaluate Its Impact



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Wage and Investment Division SE:W
Deputy National Taxpayer Advocate TA
Executive Director, Case Advocacy, Taxpayer Advocate Service TA:EDCA
Director, Intake Strategy and Workload Distribution, Taxpayer Advocate Service TA:IS&WD
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Joint Operations Center, Wage and Investment Division SE:W:CAS:JOC
Chief Counsel CC
Director, Office of Legislative Affairs CL:LA
Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       National Taxpayer Advocate TA
       Director, Customer Account Services, Wage and Investment Division SE:W:CAS




                                                                                  Page 15
                                The Taxpayer Advocate Service’s ASK-TAS1
                            Toll-Free Line Has Evolved Over Time, but Additional
                                 Steps Are Necessary to Evaluate Its Impact



                                                                                                 Appendix IV

             Taxpayer Advocate Service Case Criteria

The following chart details the criteria used by the TAS for initiating cases affecting taxpayers.1

                                          1        A taxpayer is experiencing economic harm or is about to
                                                   suffer economic harm.

                                          2        A taxpayer is facing an immediate threat of adverse action.
     Economic Burden
         Criteria                         3        A taxpayer will incur significant costs if relief is not
                                                   granted (including fees for professional representation).

                                          4        A taxpayer will suffer irreparable injury or long-term
                                                   adverse impact if relief is not granted.

                                          5        A taxpayer has had a delay of more than 30 calendar days
                                                   (after normal processing) to resolve a tax account
                                                   problem.

     Systemic Burden                      6        A taxpayer has not received a response/resolution to his or
         Criteria                                  her problem/inquiry by the date promised.

                                                   A system(s) or procedure(s) has either failed to operate as
                                          7
                                                   intended or failed to resolve the taxpayer’s problem or
                                                   dispute within the IRS.

                                                   The manner in which the tax laws are being administered
        Best Interest                     8
                                                   raises considerations of equity or has impaired or will
      of the Taxpayer                              impair the taxpayer’s rights.

                                                   The National Taxpayer Advocate determines compelling
        Public Policy                     9
                                                   public policy warrants assistance to an individual or group
                                                   of taxpayers.
Source: Internal Revenue Manual Part 13, dated April 26, 2011.




1
  The TAS has identified specific criteria that qualify certain taxpayers for TAS assistance. The criteria under which
the TAS accepts a case do not govern whether a taxpayer is entitled to relief they have requested. Situations
meeting the specific criteria should be referred to the TAS for special handling.
                                                                                                             Page 16
                             The Taxpayer Advocate Service’s ASK-TAS1
                         Toll-Free Line Has Evolved Over Time, but Additional
                              Steps Are Necessary to Evaluate Its Impact



                                                                                          Appendix V

      Comparison of the National Taxpayer Advocate
             and ASK-TAS1 Toll-Free Lines

To compare the NTA and ASK-TAS1 toll-free lines, we considered a variety of factors,
including the number of calls answered, hours of operation, FTE cost per call, how the IRS
publicizes each telephone number, and how often the taxpayer’s issue was referred to the TAS.
The following table summarizes the comparison of the NTA and ASK-TAS1 toll-free lines.
                   Comparison of NTA and ASK-TAS1 Toll-Free Lines
                                  Fiscal Year 2011

                                                                                 ASK-TAS1
        Factors Considered                  NTA Toll-Free Line                  Toll-Free Line

 Calls Answered                                     380,352                           8,958

 Percentage of Calls Resulting in                     22%                             22%
 TAS Cases

 Number of Direct FTEs                                59.5                            3.11

 FTE Cost / Call                                     $20.42                          $37.08

 Hours of Operation (local time)             7:00 a.m. – 7:00 p.m.            7:00 a.m. – 5:00 p.m.

                                                Monday - Friday                 Monday - Friday

 Percentage of TAS Case Receipts                     28.3%                            0.7%
 (4th Quarter FY 2011)
 Publicity                                IRS Website, Publications,           Targeted Publicity
                                                    etc.
Source: TAS and W&I Division management and Treasury Inspector General for Tax Administration analysis.




                                                                                                      Page 17
                              The Taxpayer Advocate Service’s ASK-TAS1
                          Toll-Free Line Has Evolved Over Time, but Additional
                               Steps Are Necessary to Evaluate Its Impact



                                                                                      Appendix VI

        Taxpayer Advocate Service Cases Received
           From the National Taxpayer Advocate
              and ASK-TAS1 Toll-Free Lines
The ASK-TAS1 toll-free line generates a very low number of calls and TAS cases compared to
the NTA toll-free line. During FY 2011, the TAS received 295,904 new cases, but only 1,998
(0.7 percent) of those cases originated from the ASK-TAS1 toll-free line. In addition, both lines
initiated a new TAS case only 22 percent of the time from the total calls answered during
FY 2011. Figure 1 provides statistical information for the ASK-TAS1 toll-free line for FY 2009
through FY 2011.
         Figure 1: ASK-TAS1 Toll-Free Line Statistical Comparison by Fiscal Year

                                                                         Percentage of TAS
                                Total Calls       Number of TAS           Cases Based on
           Fiscal Year          Answered          Cases Initiated         Calls Answered
              2009                 6,733               1,791                    27%
              2010                 7,077               1,826                    26%
              2011                 8,958               1,998                    22%
                     th
       Source: TAS 4 Quarter 2011 Business Performance Review and the IRS’s Enterprise Telephone
       Data Reporting website.

W&I Division CSRs on the NTA toll-free line answered 380,352 calls and initiated 83,889 new
TAS cases (28 percent of TAS’s new receipts in FY 2011). Figure 2 provides statistical
information for the NTA toll-free line for FY 2009 through FY 2011.
            Figure 2: NTA Toll-Free Line Statistical Comparison by Fiscal Year

                                                                         Percentage of TAS
                                Total Calls       Number of TAS           Cases Based on
           Fiscal Year          Answered          Cases Initiated         Calls Answered
              2009                326,228              77,168                   24%
              2010                371,069              85,792                   23%
              2011                380,352              83,889                   22%
                     th
       Source: TAS 4 Quarter 2011 Business Performance Review and the IRS’s Enterprise Telephone
       Data Reporting website.


                                                                                                   Page 18
                                   The Taxpayer Advocate Service’s ASK-TAS1
                               Toll-Free Line Has Evolved Over Time, but Additional
                                    Steps Are Necessary to Evaluate Its Impact



                                                                                         Appendix VII


    Cost Comparison of the National Taxpayer Advocate
             and ASK-TAS1 Toll-Free Lines

The average FTE cost of calls answered and average FTE cost per TAS case initiated from the
ASK-TAS1 toll-free line far exceeds that of the NTA toll-free line.1 During FY 2011, the TAS
average FTE cost per call answered was $37.08 and cost per TAS case was $166.27. In
comparison, W&I Division FTE cost per call answered was $20.42 and cost per case was $92.58.
Figure 1 shows the FTE cost information for the ASK-TAS1 toll-free line for FY 2009 through
FY 2011.
              Figure 1: ASK-TAS1 Toll-Free Line Fiscal Year Cost Comparison
                                                                                 Average
                                                       Average                   FTE Cost         Average
                                                       Annual                    Per Total        FTE Cost
                       Direct       FTEs With          Cost Per   Total FTE        Calls          Per TAS
    Fiscal Year        FTEs         Overhead            FTE       Cost for FY    Answered           Case
       2009             1.67          3.04             $56,234     $170,951       $25.39           $95.45
       2010             1.74            3.16           $57,026     $180,202        $25.46          $98.69
       2011             3.11            5.66           $58,692     $332,197        $37.08          $166.27
Source: TAS management and Treasury Inspector General for Tax Administration analysis.

Figure 2 shows the FTE cost information for the NTA toll-free line for FYs 2009–2011.
                  Figure 2: NTA Toll-Free Line Fiscal Year Cost Comparison
                                                                                 Average
                                                      Average                   FTE Cost          Average
                                                      Annual                    Per Total         FTE Cost
                       Direct        FTE With         Cost Per    Total FTE        Calls          Per TAS
    Fiscal Year        FTEs          Overhead          FTE        Cost for FY   Answered            Case
       2009             49.1           98.2           $61,339     $6,023,490      $18.46           $78.06
       2010             61.3            122.6          $63,494    $7,784,364      $20.98           $90.74
       2011             59.5            118.9          $65,321    $7,766,667      $20.42           $92.58
Source: W&I Division management and Treasury Inspector General for Tax Administration analysis.

1
    The average FTE cost was based on the total calls answered.
                                                                                                     Page 19
                                 The Taxpayer Advocate Service’s ASK-TAS1
                             Toll-Free Line Has Evolved Over Time, but Additional
                                  Steps Are Necessary to Evaluate Its Impact



                                                                                                  Appendix VIII

    Primary Issue Codes of Taxpayer Advocate Service
       Cases Originating From the National Taxpayer
          Advocate and ASK-TAS1 Toll-Free Lines
Many taxpayers who contact both the ASK-TAS1 and the NTA toll-free lines have similar types
of problems. In FY 2010, the top five issues developed into TAS cases from the ASK-TAS1
toll-free line were in the top seven of the NTA toll-free line. This indicates that taxpayers are
using the two phone lines for the same reasons. The following table provides more detailed
information about the types of issues received on the NTA and ASK-TAS1 toll-free lines.
                    Figure: FY 2010 Primary Issue Code Comparison
                                                            ASK-TAS1                NTA Toll-Free
              TAS Primary Issue Code                        TAS Cases                TAS Cases
        Stolen Identity (425)1                                395                      4,077
        Levy (710)2                                              120                      5,640
        Audit Reconsideration (620)3                             86                       4,709
                                    4
        Amended Returns (330)                                    83                       6,965
                            5
        Open Audit (610)                                         81                      11,632
                                   6
        Expedite Request (020)                                   18                       6,505
                                        7
        Unpostable / Rejects (315)                               63                       4,744
        Source: Queries of the Taxpayer Advocate Management Information System of FY 2010
        case receipts.


1
  Identity theft occurs when someone uses your personal information such as your name, Social Security Number, or
other identifying information without your permission to commit fraud or other crimes.
2
  A method used by the IRS to collect outstanding taxes from sources such as bank accounts and wages.
3
  The process the IRS uses to reevaluate the results of a prior audit where additional tax was assessed and remains
unpaid or a tax credit was reversed. If the taxpayer disagrees with the original determination, he or she must provide
information that was not previously considered during the original examination.
4
  Taxpayers and businesses may file an amended return to correct errors on an original tax return.
5
  Includes examination of a tax return in progress.
6
  Requests for expedited refunds include hardship refund requests, whether by paper check or Electronic Funds
Transferred. Excludes bankruptcy hold refunds.
7
  Those transactions that cannot be posted to the Master File because of a specific freeze code (e.g., Criminal
Investigation freeze). A transaction that fails to post to an account is returned to the Submission Processing site and
is referred to the appropriate area for corrective action (e.g., cases with a Criminal Investigation freeze will go to the
Fraud Detection Centers for review).
                                                                                                                Page 20
           The Taxpayer Advocate Service’s ASK-TAS1
       Toll-Free Line Has Evolved Over Time, but Additional
            Steps Are Necessary to Evaluate Its Impact



                                                    Appendix IX

Management’s Response to the Draft Report




                                                              Page 21
    The Taxpayer Advocate Service’s ASK-TAS1
Toll-Free Line Has Evolved Over Time, but Additional
     Steps Are Necessary to Evaluate Its Impact




                                                       Page 22
    The Taxpayer Advocate Service’s ASK-TAS1
Toll-Free Line Has Evolved Over Time, but Additional
     Steps Are Necessary to Evaluate Its Impact




                                                       Page 23
    The Taxpayer Advocate Service’s ASK-TAS1
Toll-Free Line Has Evolved Over Time, but Additional
     Steps Are Necessary to Evaluate Its Impact




                                                       Page 24
    The Taxpayer Advocate Service’s ASK-TAS1
Toll-Free Line Has Evolved Over Time, but Additional
     Steps Are Necessary to Evaluate Its Impact




                                                       Page 25
